<html>
<title> - [H.A.S.C. No. 114-102] Member Day - National Defense Priorities From Members For the Fiscal Year 2017 National Defense Authorization Act</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                                    

                         [H.A.S.C. No. 114-102]

                                  HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                      MEMBER DAY--NATIONAL DEFENSE

                    PRIORITIES FROM MEMBERS FOR THE

          FISCAL YEAR 2017 NATIONAL DEFENSE AUTHORIZATION ACT

                               __________

                              HEARING HELD

                             MARCH 1, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

			      __________


                  U.S. GOVERNMENT PUBLISHING OFFICE
99-646                       WASHINGTON : 2017                  
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4324332c03203630372b262f336d202c2e6d">[email&#160;protected]</a>  
 
                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                       
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Blackburn, Hon. Marsha, a Representative from Tennessee..........    20
Bost, Hon. Mike, a Representative from Illinois..................    23
Chabot, Hon. Steve, a Representative from Ohio...................     2
Chu, Hon. Judy, a Representative from California.................    10
Crawford, Hon. Eric A. ``Rick,'' a Representative from Arkansas..     6
Hanna, Hon. Richard L., a Representative from New York...........     7
Hardy, Hon. Cresent, a Representative from Nevada................    18
Meehan, Hon. Patrick, a Representative from Pennsylvania.........     9
Neugebauer, Hon. Randy, a Representative from Texas..............    21
Perry, Hon. Scott, a Representative from Pennsylvania............    12
Poliquin, Hon. Bruce, a Representative from Maine................    14
Radewagen, Hon. Aumua Amata Coleman, a Delegate from American 
  Samoa..........................................................    16
Rothfus, Hon. Keith J., a Representative from Pennsylvania.......     5
Velazquez, Hon. Nydia M., a Representative from New York.........     3
Wagner, Hon. Ann, a Representative from Missouri.................    15
Yoho, Hon. Ted S., a Representative from Florida.................    24

                                APPENDIX

Prepared Statements:

    Blackburn, Hon. Marsha.......................................    73
    Bost, Hon. Mike..............................................    78
    Chabot, Hon. Steve, joint with Hon. Nydia M. Velazquez.......    31
    Chu, Hon. Judy...............................................    60
    Crawford, Hon. Eric A. ``Rick''..............................    44
    Hanna, Hon. Richard L........................................    57
    Hardy, Hon. Cresent..........................................    69
    Meehan, Hon. Patrick.........................................    59
    Neugebauer, Hon. Randy.......................................    75
    Perry, Hon. Scott............................................    62
    Poliquin, Hon. Bruce.........................................    63
    Radewagen, Hon. Aumua Amata Coleman..........................    67
    Rothfus, Hon. Keith J........................................    41
    Velazquez, Hon. Nydia M., joint with Hon. Steve Chabot.......    31
    Wagner, Hon. Ann.............................................    65
    Yoho, Hon. Ted S.............................................    80

Documents Submitted for the Record:

    Blum, Hon. Rod, a Representative from Iowa...................    85
    Costello, Hon. Ryan A., a Representative from Pennsylvania...    87
    DelBene, Hon. Suzan K., a Representative from Washington.....    89
    DeSaulnier, Hon. Mark, a Representative from California, 
      joint with Hon. Barbara Lee................................    90
    Duncan, Hon. Jeff, a Representative from South Carolina......    92
    Eshoo, Hon. Anna G., a Representative from California........    94
    Huizenga, Hon. Bill, a Representative from Michigan..........    95
    Hurd, Hon. Will, a Representative from Texas.................    96
    Johnson, Hon. Sam, a Representative from Texas...............   100
    Keating, Hon. William R., a Representative from Massachusetts   103
    Kinzinger, Hon. Adam, a Representative from Illinois.........   104
    Lee, Hon. Barbara, a Representative from California, joint 
      with Hon. Mark DeSaulnier..................................    90
    Loebsack, Hon. David, a Representative from Iowa.............   106
    McKinley, Hon. David B., a Representative from West Virginia.   113
    Posey, Hon Bill, a Representative from Florida...............   116
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate from 
      Northern Mariana Islands...................................   122
    Sarbanes, Hon. John P., a Representative from Maryland.......   137
    Schweikert, Hon. David, a Representative from Arizona........   139
    Young, Hon. Don, a Representative from Alaska................   162

  MEMBER DAY--NATIONAL DEFENSE PRIORITIES FROM MEMBERS FOR THE FISCAL 
              YEAR 2017 NATIONAL DEFENSE AUTHORIZATION ACT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, March 1, 2016.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The House Armed Services Committee meets today to receive 
testimony from Members of Congress on their national security 
priorities for fiscal year 2017 National Defense Authorization 
Act.
    A quick note on the format today, in consultation with the 
ranking member we will depart from our regular questioning 
process.
    Each witness will have 4 minutes to testify. Members of the 
committee may seek recognition by raising their hand or letting 
the staff know and each would then be granted 2 minutes.
    As this hearing is intended to be a listening session, it 
is not my intention to engage in extended debate, rather to 
hear from our colleagues.
    We certainly look forward to today's testimony and I will 
yield to the distinguished acting ranking member for any 
comments she would like to make.
    Mrs. Davis. Thank you, Mr. Chairman. Happy to join with you 
today and I will be listening as well to the presentations that 
we have.
    Thank you.
    The Chairman. Thank the gentlelady for being here. Our 
first witnesses are the distinguished chair and distinguished 
ranking member of the House Small Business Committee. And I 
will say I am particularly pleased with the cooperation between 
our two committees over the past several years in getting a lot 
of things done for small businesses engaged in national 
security.
    Chairman Chabot and Ranking Member Velazquez, thank you for 
being here.
    Chairman, you are recognized for 4 minutes.

   STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM OHIO

    Mr. Chabot. Thank you, Mr. Chairman, and we really do 
appreciate the cooperation that we have had with this 
committee. You have been great and on a bipartisan basis, we 
appreciate it. And we look forward to working with this 
committee to ensure that small businesses continue to provide 
the Department of Defense and the Federal Government with 
solutions and foster innovation and competition that provide 
value to the taxpayer and strength and agility to the 
warfighter.
    Mr. Chairman and ranking member, we appreciate your help. 
We really do. And thank you for the opportunity to share a few 
thoughts about the fiscal year 2017 National Defense 
Authorization Act [NDAA].
    Let me begin by thanking the committee for its 
collaboration, as I say, and in my 20 years on the committee I 
have enjoyed seeing this relationship blossom. And the hard-
fought passage of last year's NDAA was a success for our 
national security, for our men and women in uniform, and for 
our small business industrial base.
    We look forward to continuing that relationship with this 
year's bill, and I want to congratulate you on passing last 
year's bill and for your commitment to ensuring that the NDAA 
remains a vital national security policy bill.
    As you well know, improving acquisition and procurement at 
the Pentagon is critical to national security because it 
delivers real benefits to our warfighters. Very often small 
companies can provide better products and services to our 
military in shorter periods of time and importantly at lower 
cost. When the Defense Department has fewer offers there is 
less competition, costs go up and choices are limited.
    Unfortunately, we continue to see that the number of 
companies competing for Federal contracts declining, which 
threatens competition and harms readiness. Within the last 3 
years we have lost over 25 percent of the small firms 
registered to do business with the Federal Government.
    Within the Department of Defense, the number of small 
business contract actions fell 47 percent from 2011, but the 
size of the average individual small business contract action 
more than doubled. Not surprisingly, during the same period the 
percentage of taxpayer dollars spent without competition has 
increased.
    As Chairman Thornberry frequently says, we need to focus on 
getting more defense for the dollar. And competition by small 
business is a major part of that solution.
    With this thought in mind, 15 members of the Small Business 
Committee introduced contracting bills this year. Working 
closely with our colleagues, Ranking Member Nydia Velazquez, 
here with me today, I collected these commonsense reforms plus 
many other solid reforms and put them into one bill, H.R. 4341, 
the Defending America's Small Contractors Act of 2016.
    We were able to approve H.R. 4341 unanimously earlier this 
year. This bill not only reflects our priorities but also the 
members of the committee in a bipartisan manner as well on the 
Small Business Committee. While I provided more detail in my 
written statement, I would like to share with you the five ways 
H.R. 4341 helps small contractors compete.
    First, it modernizes the Small Business Act to ensure that 
the language used is clear and consistent across Federal 
procurement programs.
    Second, it strengthens the small business advocates within 
SBA [Small Business Administration], Department of Defense, and 
other Federal agencies to promote competition and make sure the 
laws on the books, including the NDAA, are followed.
    Third, it improves opportunities for small businesses to 
compete for subcontracts and then to build on that experience 
to compete as prime contractors.
    Fourth, it improves coordination between the SBA and 
Department of Defense Mentor-Protege programs, which helps 
small businesses better serve our military.
    And finally, the bill implements commonsense reforms to 
ensure integrity and accountability in small business programs 
such as size standards, veterans' contracting programs, and 
contracting officer training programs.
    In the coming weeks I also expect our committee to approve 
additional legislation that reauthorizes and strengthens the 
Small Business Innovation Research program, the SBIR. I 
respectfully ask the committee to incorporate all these 
provisions into this year's NDAA. Our Nation needs a robust 
small business industrial base. It is vital to both the health 
of our economy and our national security.
    We appreciate your time here this morning, Mr. Chairman.
    [The joint prepared statement of Mr. Chabot and Ms. 
Velazquez can be found in the Appendix on page 31.]
    The Chairman. Thank you, sir. I appreciate it. The Ranking 
Member Velazquez. Sorry. We should have had more than one 
microphone out there.
    Mr. Chabot. We will switch places.

STATEMENT OF HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE FROM NEW 
                              YORK

    Ms. Velazquez. Thank you, Mr. Chairman and acting ranking 
member for giving us this opportunity to come before you. And I 
just want to take this opportunity for our continuing 
collaboration between these two committees.
    For several decades now, the Federal Government has looked 
to the private sector to provide services and supplies for its 
day-to-day operations. And the Department of Defense is at the 
heart of this buying power, accounting for over half of all 
contracting dollars. As such, a vibrant industrial base has 
become essential, not only to the U.S. economy but most 
importantly to our national security.
    The defense industrial base relies on a supply chain that 
is diverse and agile, so it should come as no surprise to those 
in this room that small businesses are at the heart of this 
chain. With a strong presence in a variety of different 
industries from construction to manufacturing, small businesses 
continue to play a vital role in providing our government with 
goods and services.
    Yet in order to continue the resurgence of the industrial 
base, we need to ensure that small businesses are able to 
compete both globally and here in America. Competition is good, 
Mr. Chairman, for both taxpayers and for small businesses.
    Here at home this means opening up the nearly half a 
trillion Federal marketplace to small firms. Numerous policies 
and protections have been put in place to allow for their 
continued participation in this arena, thereby securing our 
country's industrial base. However, it appears that we have 
stalled in removing barriers to the marketplace.
    Chairman Chabot and I have been longtime members of the 
House Small Business Committee, and we can both tell you that 
it is getting harder for small businesses, not easier. And that 
is why we are here today. From the difficulty firms face in 
accessing the entrepreneurial development needed to help 
getting a contract, to the uncertainty of programs like SBIR, 
changes are needed that would allow small businesses to compete 
in the marketplace.
    Over the years we have seen the value of small businesses' 
contracts go up, enabling agencies to meet their goals, but at 
the same time the number of contractors has dwindled. In the 
last 4 years the number of contractors registered to do 
business with the Federal Government has decreased by 
approximately 100,000 firms.
    I think we can all agree that the disappearance of 100,000 
firms is a problem for our country's national security. That is 
why Chairman Chabot and I, along with the other members of the 
House Small Business Committee, came together to author H.R. 
4341, the Defending America's Small Contractors Act of 2016.
    This bipartisan bill addresses just some of the many issues 
that small businesses have indicated they face when competing 
for contracts. As the chairman indicated, our joint written 
statement will provide you with further details regarding H.R. 
4341.
    However, this bill increases transparency, provides clarity 
on uniformity, strengthens competition, and eliminates barriers 
to the marketplace. The landscape of Federal contracting is 
evolving with agencies moving to larger procurement vehicles. 
We must secure our industrial base and ensure that small 
businesses are not left at the wayside. And that is exactly 
what H.R. 4341 does.
    Therefore, I join the chairman in strongly advocating for 
the complete bill's inclusion in the fiscal year 2017 National 
Defense Authorization Act. I thank you again for allowing us to 
testify here today.
    Thank you.
    [The joint prepared statement of Ms. Velazquez and Mr. 
Chabot can be found in the Appendix on page 31.]
    The Chairman. Well, let me thank you both again for your 
contribution. I think the sense we have is just as both of you 
have testified, it is getting harder and harder, especially for 
small business, to do business with the Department of Defense.
    And that is why our committee on a bipartisan basis is so 
focused on trying to improve the way the Department of Defense 
does acquire goods and services. And the bill that you all have 
introduced and passed out of committee is certainly something 
that we want to take a serious look at in that effort.
    Are there any questions for these witnesses? If not, thank 
you both again for being here, and I appreciate it.
    Let me ask unanimous consent that the complete written 
statement of these and all witnesses be made part of the 
record. Without objection. In addition, the chair has received 
some written statements from members who are not able to be 
here to testify and I ask unanimous consent that they also be 
made part of our record.
    [The information referred to can be found in the Appendix 
beginning on page 31.]
    The Chairman. Without objection.
    Next, pleased to welcome the gentleman from Pennsylvania, 
Mr. Rothfus, for his testimony. The gentleman is recognized for 
4 minutes.

   STATEMENT OF HON. KEITH J. ROTHFUS, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Rothfus. Thank you, Chairman Thornberry, Acting Ranking 
Member Davis, and members of the committee. Thank you for 
receiving my testimony on the National Defense Authorization 
Act for fiscal year 2017.
    In an increasingly dangerous world there is no greater 
constitutional responsibility of Congress than providing for 
the common defense of our Nation. Yet meeting this obligation 
has become increasingly difficult in recent years due to 
avoidable and unnecessary fiscal constraints.
    It is as a result of these constraints that our military 
has been forced to implement policies like the Army's Aviation 
Restructure Initiative [ARI], which I have long opposed.
    As you may recall, I have appeared before this committee 
each year since ARI to raise the alarm that the plan is 
dangerous, shortsighted, and will significantly harm our 
national security. Specifically, ARI will have devastating 
impacts on the National Guard, stripping it of its Apaches and 
ensuring that it will be less combat ready and less able to 
provide operational depth.
    It will also deprive our Nation of an operational reserve 
for these aircraft, which is essential to the retention and 
management of talented air crews. Post-9/11 the National Guard 
has become a highly experienced and capable combat force, yet 
ARI represents a fundamental shift in the nature and role of 
the National Guard and runs counter to the wisdom and 
preference of many Members of Congress and their constituents. 
This conclusion is bolstered by the recent report and 
recommendations offered by the National Commission on the 
Future of the Army [NCFA].
    I joined my colleagues in urging this committee to create 
the NCFA to offer a deliberate assessment of the ARI. After 
extensive discussion and analysis, the commission soundly 
rejected the Army's plan. Instead, the commission proposed an 
alternative plan to maintain 4 National Guard Apache battalions 
equipped with 18 aircraft each. The plan also proposes to add 
two Black Hawk battalions to the National Guard.
    In the commission's opinion, this offers ``significant 
advantages'' relative to ARI by providing greater wartime 
capacity, improved operating tempo, higher wartime surge 
capacity, and contributing to a key goal of achieving one Army 
that works and trains together in peacetime and if necessary 
fights together in war.
    Last year I fought to ensure that the Army could not move 
forward with the ARI until the commission had completed its 
work. The time has come. We must put an end to ARI, implement 
the NCFA's recommendation and retain a minimum of four Apache 
battalions in the National Guard.
    Of course the question remains how these aviation assets 
will be distributed. And there are some who argue that the 
battalions should be located in single States. I would caution 
against this approach and instead point to the many positive 
benefits that come from multistate units, such as the agreement 
that was reached between my home State of Pennsylvania and 
South Carolina.
    Under the terms of these agreements, one State would retain 
a battalion headquarters and two companies of Apaches. The 
other State would retain the remaining company. By expanding 
the footprint of the Apache battalions, the National Guard will 
maximize its ability to recruit and retain talented pilots and 
crew from different regions of the United States.
    Multistate units will also ensure that National Guard 
companies can regularly participate in collective training and 
maintenance with the regular Army thereby advancing the Army's 
objective for total force integration. Finally, multistate 
units will provide strategic ``grow-back'' depth in the 
National Guard should the need arise in the future to re-
establish additional Apache battalions, such as the 1st 104th, 
that have been disbanded.
    While addressing current fiscal constraints is important, 
we must proceed in such a way that will maximize our readiness 
and ability to surge in times of war. Time and again the brave 
members of the National Guard have risen to the occasion and 
heeded the call to defend our Nation, both at home and abroad. 
By taking the steps that I have identified here today, Congress 
can ensure that they may continue to do so for years to come.
    I thank the chairman.
    [The prepared statement of Mr. Rothfus can be found in the 
Appendix on page 41.]
    The Chairman. Thank the gentleman. Any questions for the 
gentleman from Pennsylvania? If not, I appreciate the gentleman 
being here.
    I agree that I think there is a lot of support for the Army 
commission. They did what we asked them to do. And we will 
definitely consider those recommendations carefully. I 
appreciate the gentleman for being here.
    Next we have the gentleman from Arkansas, Mr. Crawford. 
Appreciate the gentleman being here. Your full written 
statement will be made part of the record. The gentleman is 
recognized for 4 minutes.

 STATEMENT OF HON. ERIC A. ``RICK'' CRAWFORD, A REPRESENTATIVE 
                         FROM ARKANSAS

    Mr. Crawford. Thank you, Chairman Thornberry, Ranking 
Member Smith. I would like to thank Mrs. Davis as well, my co-
chair of the Congressional Explosive Ordinance Disposal [EOD] 
Caucus. And I want to present to you several priorities for 
fiscal year 2017 NDAA.
    I applaud the chairman and ranking member's personal 
interest in streamlining DOD [Department of Defense] processes 
for research, development, and acquisition [RD&A].
    In that spirit I request enacting the EOD Caucus' proposed 
language that would establish a fully joint EOD program with 
the Navy as executive agent for DOD to coordinate and integrate 
RD&A for EOD defense programs. Currently, the Secretary of 
Defense has designated the Secretary of the Navy as the single 
service manager for common EOD technology and training.
    This approach creates a nightmare of logistics and 
paperwork that results in years of delays in fielding crucial 
EOD technology. Second, we have concerns that the Army has been 
quietly duplicating roles, responsibilities, and mission sets 
of its EOD force into that of the Chemical force.
    Briefly, the Army Chemical Corps has taken credit to senior 
Army leadership for the EOD force's accomplishments over the 
last 15 years. All of this at the same time that the Chemical 
Corps has experienced regular mission failure and has not 
deployed to any theater in the last 15 years to conduct their 
primary mission.
    The EOD formations are the ones who provide scalable and 
tailorable mission command. Tactical EOD units conduct weapons 
defeat, weapons disablement, and weapons disposal activities.
    In that spirit, please also consider enacting EOD Caucus' 
proposed language on Title 10, United States Code, chapter 307, 
section 3063 which strikes ``Chemical Corps'' and inserts 
``Explosive Ordinance Disposal Corps'' as a basic branch of the 
Army.
    Third, I urge the publishing of directive report language 
using the EOD Caucus' proposed language for the Secretary of 
the Army to provide a brief and report on the Army EOD Branch 
Proponent no later than December 1, 2016, to the committee.
    Finally, our national security is our biggest priority and 
when restructuring the end strengths of the Armed Forces we 
need to slow down the process. It is especially important to 
maintain a strong and agile military in the face of emerging 
threats.
    I recommend incorporating the end strength numbers from the 
POSTURE Act within the NDAA for fiscal year 2017.
    And with that, I yield back.
    [The prepared statement of Mr. Crawford can be found in the 
Appendix on page 44.]
    The Chairman. I thank the gentleman and appreciate his 
recommendations. Are there any questions for the gentleman from 
Arkansas? Again, because of your personal experience we really 
appreciate your expertise. And I know that Mrs. Davis will be 
bringing those issues forward and so we can consider them that 
you mentioned. So thank you, sir.
    Next we have the distinguished gentleman from New York, Mr. 
Hanna. Thank you for being here. The gentleman is recognized 
for 4 minutes.

 STATEMENT OF HON. RICHARD L. HANNA, A REPRESENTATIVE FROM NEW 
                              YORK

    Mr. Hanna. Thank you, Chairman Thornberry and Ranking 
Member Davis. I am here today to respectfully request that the 
committee take action on two important issues, contracting 
reform and cybersecurity.
    The Small Business Committee recently marked up the 
Defending America's Small Business Contractors Act which seeks 
to assist small businesses in competing for Federal contracts. 
I want to speak briefly in support of section 302 of this bill.
    This provision would create a voluntary pilot program at 
the SBA that would provide first-tier subcontracting small 
businesses with performance ratings based on their previously 
completed work. One challenge facing many small businesses 
competing for larger Federal contracting opportunities is that 
it is difficult for them to gain recognition for their past 
first-tier work as subcontractors. This prevents them from 
bidding, from using their track record they need to compete for 
larger prime contracts.
    As a contractor myself and the chairman of the Subcommittee 
on Contracting and Workforce, I am confident that these changes 
will lead to more competition in the marketplace, which will 
lead to lower costs.
    This committee has taken the lead on contracting and 
acquisition reform. I respectfully urge you to include section 
302 in the National Defense Authorization Act for fiscal year 
2017. It is a sensible change that creates more opportunity for 
small business contractors and brings greater competition to 
the marketplace.
    The second issue I want to bring to the committee's 
attention is very important to my district. I have the 
privilege of representing the Air Force Research Lab in Rome, 
New York, which is home to some of the most advanced 
cybersecurity research in the world.
    Our country faces unprecedented challenges in cyberspace 
which demand robust solutions that tap into the total force of 
our country's military, including the Guard and Reserve 
personnel. At this committee's urging, the Army recently 
conducted an analysis of its cyber capacities. It found that 
the Guard is well-placed to contribute to defensive cyber 
operations but has yet to effectively bring them into the fold.
    While the National Guard Bureau has named 10 Army cyber 
protection teams to be based in each of the 10 Federal 
Emergency Management Response Regions, the Army has not 
allocated any funds to sustain them. Neither has it provided a 
long-term plan for integrating them into the cyber mission 
force. No approach to secure cyber domain is complete unless it 
utilizes the broad range of skills and assets possessed by the 
Guard personnel.
    Anyone familiar with Guard capacities knows how well-suited 
its citizens are to take on an expanded cyber mission. These 
men and women of the Guard develop unique expertise in their 
private lives and can be ground-ready within a moment's notice. 
I respectfully request that the members of this committee work 
with the Army to provide a long-term strategic plan for 
integrating the Army Guard personnel into cyber mission force 
for fiscal year 2017. In addition, I ask that you support the 
entire bill H.R. 4341.
    Thank you.
    [The prepared statement of Mr. Hanna can be found in the 
Appendix on page 57.]
    The Chairman. Thank the gentleman. Are there any questions? 
Again, I appreciate the gentleman on both issues. I know from 
our conversations last year because of the gentleman's personal 
background and also your leadership position on small business 
that we want to continue to work closely with you on improving 
contracting and acquisition, especially as it affects small 
business. So I appreciate the gentleman's input.
    Next we are pleased to welcome the gentleman from 
Pennsylvania, Mr. Meehan, who is recognized for 4 minutes.

    STATEMENT OF HON. PATRICK MEEHAN, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Meehan. Thank you, Mr. Chairman, and I want to thank 
the ranking member and each of the members of this committee 
and my good friend the gentleman from New Jersey as well. And I 
want to express my deep appreciation, not just for your holding 
this hearing, but for taking the time to consider the real 
matters of priority-setting with regard to our national 
defense. And I very much appreciate the opportunity to weigh in 
what I believe is really pressing national security issue.
    The Marine Corps V-22 Osprey program has been involved in 
some of the most sophisticated combat operations since it 
became operational in 2009. And that is including among them 
the mission to eliminate Osama Bin Laden.
    With the kind of flexibility it has, of course, you know it 
flies like a helicopter, lands like a helicopter, flies like a 
plane, and it gives unmatched flexibility to the warfighter in 
the theater. Now, Marine commanders will tell you that the 
Osprey gives them the unprecedented ability to move troops and 
material around the battlefield faster than ever before. It has 
also been one of America's best examples of its outreach to 
nations who are struggling with natural disasters.
    The Osprey is constructed at Boeing's facility in Ridley 
Park, Delaware County and by Bell Helicopter in your own 
district, Amarillo, Texas, Mr. Chairman. But fundamentally it 
has been purchased under a 5-year contract that Congress 
authorized in fiscal year 2013, and at that time all four 
congressional defense committees, including this committee, 
supported that contract.
    For good reason. The contract saved nearly $1 billion over 
a single-year contract and it gave predictability to the 
industry to even drive further efficiencies and capabilities 
into the aircraft. But unfortunately, the President's fiscal 
year 2017 budget request unexpectedly reduced the procurement 
of the Osprey aircraft by two airframes. It increased the cost 
in termination liability that could ultimately lead to 
additional and unnecessary cost for the taxpayers.
    It has got the potential to jeopardize the workforce at the 
Boeing facility in Ridley, and I would suspect similarly in 
Amarillo, Texas. And it will take vital tools out of the hands 
of our battlefield commanders. The only reason for the 
reduction is a budget from the White House that doesn't meet 
the needs of our warfighters.
    And it is why the Marine Corps itself actually requested 
that the two aircraft be replaced in its annual unfunded 
priorities list, which was submitted to the committee after 
this budget release. The V-22 Osprey has proven itself to be 
one of the most versatile aircraft in the Pentagon's inventory. 
Its success in action is a tribute to the men and women who fly 
the Osprey and to the skills of the workforce in both Ridley 
Park and in Amarillo that produce it.
    Congress and your respective committees in particular have 
reliably demonstrated strong support for the V-22 program, and 
I ask that your committee continue the steadfast approach by 
restoring two MV-22 airframes in the fiscal year 2017 budget. 
They are a good deal for our taxpayers. They support good-
paying jobs, and most importantly, they are a vital tool for 
the men and women in the field.
    And I thank you for your consideration.
    [The prepared statement of Mr. Meehan can be found in the 
Appendix on page 59.]
    The Chairman. Thank you. The gentleman from New Jersey is 
recognized for 2 minutes.
    Mr. Norcross. Thank you. It is good to see that you came in 
and brought this to light. Certainly we have been watching it 
from the days that we went over and saw this. It is about 
predictability. Most importantly it is that V-22, who we hear 
as early as last week from the Commandant of the Marine Corps, 
how important it is for those two additional airframes. So we 
hear you loud and clear and certainly we will be pressing that 
matter.
    Thank you for your testimony.
    Mr. Meehan. I want to thank the gentleman. It was so 
critical. We watched the workers on this program and their 
ability to create the efficiencies with the multiyear 
contracting, which has produced a better and more effective war 
machine and also saved money simultaneously, but we are working 
against ourselves if we allow this to go forward as directed by 
the administration.
    Thank you, Mr. Chairman.
    Mr. Norcross. Thank you, and we yield back.
    The Chairman. Other questions? I appreciate the gentleman's 
testimony. I think he makes the case very well.
    Mr. Meehan. Thank you, Mr. Chairman.
    The Chairman. Appreciate it. Let us see. Next we welcome 
the gentlelady from California, Ms. Chu, before the committee. 
The gentlelady is recognized for 4 minutes.

  STATEMENT OF HON. JUDY CHU, A REPRESENTATIVE FROM CALIFORNIA

    Ms. Chu. Chairman Thornberry and Ranking Member Davis, next 
month will recognize the fifth anniversary of the death of my 
nephew, Harry Lew. Harry was determined to serve his country in 
any way he could. He enlisted in the Marine Corps and deployed 
to Afghanistan in 2011. My family beamed with pride. We never 
could have imagined the tragedy that would ensue.
    While in Afghanistan, he was the victim of military hazing. 
In the middle of the night his fellow Marines took it upon 
themselves to administer so-called corrective training for 
almost 4 hours. They tormented, abused, and degraded him. They 
forced him to carry a 25-pound sandbag and perform useless, 
unnecessary exercise while he was clad in his full-body armor. 
After they kicked, punched, and stomped on his back, they 
nearly smothered him with the contents of a sandbag.
    Twenty-two minutes after this torture, Harry took his own 
life, and my family was forever changed. Yet Harry was not the 
only one. Over the years I have heard stories of other service 
members who also experienced hazing so arduous it led to their 
deaths.
    Private Danny Chen also served in Afghanistan in 2011. He 
was also a victim of racially based hazing and like Harry, 
Danny took his own life. I have made it my mission to end 
hazing in our armed services because it is unacceptable and 
indefensible.
    I worked to secure reports from the military branches in 
the 2013 National Defense Authorization Act. The reports reveal 
the overall lack of reliable information and data on hazing, 
including serious deficiencies in the tracking and treatment of 
hazing by the Department of Defense.
    Therefore, I urged the committee to include language for a 
Government Accountability Office [GAO] report on the current 
status of hazing in the military in the 2015 National Defense 
Authorization Act. With your assistance, this language was 
indeed included and I thank all of you for doing that.
    Congress received this report this last month. Today, we 
have an independent analysis that found that DOD anti-hazing 
policies are not being implemented, training is unclear, and 
tracking systems are highly divergent and underdeveloped. More 
specifically we learn that DOD is not aware of the extent to 
which the Department's hazing policies have been implemented.
    In December 2015, DOD released an updated policy memorandum 
on hazing, but as the GAO indicates it does not go far enough 
to ensure that the policies are being implemented consistently 
and thoroughly.
    GAO underscored the need to better define hazing in order 
to teach service members how to identify it. It emphasized the 
need to vastly improve the military services' tracking 
mechanisms, which are incomplete and inconsistent, preventing 
us from having the reliable data that would help determine root 
causes and propose real solutions.
    Lastly, the GAO indicates that the DOD has not evaluated 
the prevalence of hazing in a meaningful way. Given these 
objective findings, I request that as the House Armed Services 
Committee prepares the 2017 National Defense Authorization Act, 
language is included to, number one, require DOD to submit an 
annual report to Congress to ensure that anti-hazing policies 
are implemented consistently.
    Secondly, require DOD to improve existing training to help 
service members better identify and respond to hazing at all 
command levels.
    Third, mandate that DOD issue a Department-wide guidance on 
a comprehensive and consistent data collection system that 
includes information on protected classes such as race and 
religion.
    And fourth, evaluate the prevalence through Department-wide 
surveys. Only when we have these changes in place can we truly 
begin to eliminate hazing in the military.
    Thank you, Chairman Thornberry and Ranking Member Davis, 
for allowing me to discuss my legislative priorities for the 
2017 National Defense Authorization Act. I urge Congress to 
take action to eradicate hazing in the military.
    [The prepared statement of Ms. Chu can be found in the 
Appendix on page 60.]
    The Chairman. Well, let me just thank you, Ms. Chu, not 
only for being here but for your commitment to this issue and 
following through on it. It is something that I not only 
appreciate but admire. As you mention, we have had provisions 
related to this issue in each, I think, of the four last House-
passed NDAAs. One year it didn't make it. We couldn't persuade 
our colleagues in the Senate.
    But also as you mention we just received the report from 
the fiscal year 2015 bill. We want to look at that carefully 
and we will absolutely consider your suggestions on how to 
further get better information so that we can see what may be 
appropriate.
    Are there other questions for the gentlelady from 
California? Great.
    Thank you, ma'am.
    Ms. Chu. Thank you.
    The Chairman. Appreciate you being here. The gentleman from 
Pennsylvania, Mr. Perry, is welcomed and recognized for 4 
minutes.

     STATEMENT OF HON. SCOTT PERRY, A REPRESENTATIVE FROM 
                          PENNSYLVANIA

    Mr. Perry. Thank you, Mr. Chairman and ranking member and 
members of the committee for this opportunity. Appreciate the 
ability to have some input.
    Today I focus my remarks on one decision of particular 
concern with many of our fellow Members of the House, the armed 
services--or the Army's proposed Aviation Restructure 
Initiative or ARI and its negative impacts on our Reserve 
Component, which are highlighted by the report and 
recommendations offered by the National Commission on the 
Future of the Army.
    Mr. Chairman, at the height of the wars in Iraq and in 
Afghanistan nearly 50 percent of the Army's total force was 
Reserve Component. As a matter of fact, I am proud of my own 
State, Pennsylvania. The Guard alone there contributed more 
than 21,000 individual deployments to these theaters, including 
one of my own where I was privileged to command a task force of 
Army aviators across the full spectrum of operations from 
attack to reconnaissance to heavy lift to general support.
    Now, according to cost savings calculations provided by the 
Army, none of the projected $12 billion in cost savings is 
derived from moving Apaches, the 864, from the National Guard 
to the regular Army. ARI would leave the National Guard less 
combat ready at most, and most importantly, less able to 
provide operational depth.
    You see, Mr. Chairman, the experience in the attack 
community, as you know, is in the Guard. It is because of 
multiple deployments and the complexity of flying the Apache. 
You can learn to fly the Apache in several months, but to 
become a true Apache pilot takes years and years of dedication.
    Folks simply get tired of being deployed all the time and 
working at that tempo, but they still want to serve so they 
come to the Guard. And so where you have an 800-hour cockpit in 
the Active Component downrange, you will have a 4,500-hour 
cockpit in the Guard. It is not meant to disparage one or the 
other. It is just where the operational depth is located.
    ARI would further reduce the connective tissue that bind 
the Army and the National Guard since Apaches would then 
constitute an area where the two cannot work together.
    Mr. Chairman, at all the times where those of us that 
served in the military say we are an Army of one. How can we be 
an Army of one when one has and one does not? When one goes to 
replace and doesn't have the components or the training to 
replace? I mean, you can't say it but not do it. This 
represents a fundamental shift in the nature and role of the 
National Guard and runs counter to the years and billions of 
dollars invested by the taxpayers.
    We used to be a strategic reserve. I was in the Guard back 
then when we went to summer camp. That has been over for years 
and years and years and the taxpayers have paid dearly, dearly 
for an operational reserve, which is what the Guard and the 
Reserve has become as evidenced by how many times we deploy.
    The National Commission on the Future of the Army rejected 
the ARI, the Aviation Restructure Initiative, after comparing 
it to a number of alternatives. Other significant advantages 
over the ARI include allowing for greater wartime capacity. You 
can reach back to the Guard when Active Components have 
deployed over and over and over again. Improved operational 
tempo because you can schedule that stuff. Higher wartime surge 
capacity, otherwise there is none.
    If you do everything you have got with the Active Component 
and you are tapped out, there is not going to be anybody to 
reach back to under the ARI. And it balances the force. It 
creates like components so we can be an Army of one so we can 
replace one another when we need to. And it achieves the goal 
of an Army that works together, trains together in peacetime, 
and if and when necessary, can deploy together and fight in a 
war.
    And finally, Mr. Chairman, in the remaining few seconds I 
have, if as the commission says there should be two more ARBs 
[Army Reserve battalions], those two should be located in the 
Guard based on cost and quite honestly nearly every single 
other metric including arms inspections results, safety and 
success in combat.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perry can be found in the 
Appendix on page 62.]
    The Chairman. So just to be clear, the gentleman supports 
the commission recommendations, correct?
    Mr. Perry. Indeed I do, sir.
    The Chairman. Okay. Thank you. Any questions? Great. Thank 
you, sir. Appreciate you being here.
    Next we have the distinguished gentleman from the State of 
Maine, Mr. Poliquin. Welcome, sir, and you are recognized for 4 
minutes.

 STATEMENT OF HON. BRUCE POLIQUIN, A REPRESENTATIVE FROM MAINE

    Mr. Poliquin. Thank you, Mr. Chairman, I appreciate it very 
much; and thank you very much, Ranking Member Davis, for the 
opportunity to be here today.
    There are three topics I would like to talk to you about if 
I may, first deals with the Berry Amendment. The Berry 
Amendment law requires, as we all know, that standard issuance 
equipment be Berry compliant. And the only piece of equipment 
to my knowledge that recruits today in all branches of the 
military are not issued are athletic shoes. And that is because 
a period of time there were no athletic shoe manufacturers in 
America that were, in fact, Berry compliant.
    However, that has changed. The New Balance Shoe Company 
that has three plants in Maine, my district. This is really 
important, Mr. Chairman, to my district. Nine hundred employees 
in Skowhegan, Norridgewock, and in Naples, Maine make the best 
athletic shoes in the world. In fact, right now I am wearing a 
pair. You just can't see them, but they are on my feet right 
now and they are terrific.
    All I am asking, sir, is that the Department of Defense 
obey the law and make a standard issuance piece of equipment, 
athletic shoes, that are fully Berry compliant. The New Balance 
Shoe Company has retooled their manufacturing process, invested 
millions in doing this, and as I said, they are now completely 
Berry Amendment compliant.
    Now, Congresswoman Tsongas has language that she has 
submitted to be included in the NDAA. And we please ask you to 
support that language which would solve this problem and 
require the Department of Defense to issue Berry compliant, 
Berry Amendment compliant athletic shoes for all of our 
recruits. That is the first thing, sir.
    The second one, Mr. Chair, is that I am very grateful that 
in last year's NDAA authorization there was an additional DDG-
151 destroyer that was put in that authorization. And also the 
Navy has committed to make sure the incremental funding for the 
complete procurement of that destroyer be included in the 
process.
    All I am asking you folks to do, please, is make sure you 
support the full funding of that additional DDG-151. These are 
the best battleships in the world, sir. They are made in Bath, 
Maine. They have a front-line multi-mission purpose, including 
a ballistic defense missile defense. So it is really important 
for national security.
    There are 6,000 Mainers that are employed at Bath Ironworks 
that manufactures, creates, and builds these best destroyers in 
the world. And please I ask you to support the full funding of 
this additional DDG-151.
    Thirdly, I am introducing a bill, Mr. Thornberry, called 
the Fair Treatment of Our National Guard and Reservists Act. 
Now, this is something that is so commonsense to so many 
Mainers that they rely on common sense to get through the long 
winters up there.
    Right now if you are a Federal employee and you travel 
beyond 50 miles to do your work and you are not reimbursed for 
travel expenses, let us say, gas, food, and lodging, then those 
expenses are tax deductible. But if you are a guardsman or 
woman or you are in a Reserve, the law requires you to travel 
over 100 miles to receive the same treatment.
    So now that is just not fair. I mean, these are folks that 
are being trained to make sure they can protect our country, as 
Mr. Perry just testified with respect to the Guard. All we are 
asking is that the IRS [Internal Revenue Service] treat our 
guardsmen and reservists the same way as they treat every other 
Federal employee, making sure that if they travel beyond 50 
miles--not 100 miles--they can use those travel expenses as a 
tax deduction.
    Now, my request, Mr. Thornberry, if I may, is simply that 
the Secretary of Defense conduct a study such that we know what 
the cost is to our guardsmen and our reservists for this travel 
beyond 50 miles so we can see what the fiscal note will be.
    So the three things I am asking for today, Mr. Chairman, if 
I may, in summary, number one, please include Chairwoman 
Tsongas' language into the appropriate parts of the law that 
requires the Department of Defense to obey the Berry Amendment 
law and issue athletic shoes, Berry Amendment athletic shoes 
for our recruits.
    Secondly, please make sure you support the fully funding of 
our additional DDG-151 destroyer made up in Bath, Maine.
    And thirdly, support my bill that asks the Secretary of 
Defense to create a study such that we know what the cost is to 
our guardsmen and our reservists with respect to reimbursement 
deductions, travel deductions beyond 50 miles.
    [The prepared statement of Mr. Poliquin can be found in the 
Appendix on page 63.]
    The Chairman. Great. I think the gentleman makes the case 
on each of the three points very well. Are there any questions? 
If not, I appreciate the gentleman being here.
    Mr. Poliquin. Thank you very much, Mr. Chair. Appreciate 
it.
    The Chairman. Next we are pleased to welcome the gentlelady 
from the State of Missouri, Mrs. Wagner, before the committee. 
The gentlelady is recognized for 4 minutes.

  STATEMENT OF HON. ANN WAGNER, A REPRESENTATIVE FROM MISSOURI

    Mrs. Wagner. Mr. Chairman and members of the committee, it 
is a joy to be in front of you again this year, and I thank you 
for your time. I want to begin by thanking you for your 
steadfast commitment to our Nation's most pressing national 
security matters. In that vein, I want to highlight the growing 
stresses on the demands for United States naval tactical 
aviation.
    As you know, the ongoing wartime operations against the 
Islamic State of Iraq and the Levant have greatly increased 
operational tempo of our tactical aircraft. The carrier-based 
aircraft F/A-18 Hornets and Super Hornets have been the 
backbone of the force projection and engagement.
    Last year, the Chief of Naval Operations testified that his 
Navy faces a shortage of operational aircraft. This is commonly 
referred to as the tactical aviation shortfall. Congress and 
your committee, sir, led the way, addressing part of this 
challenge with added aircraft in fiscal year 2016.
    However, the President has not budgeted to take on the 
challenge more robustly in this year's budget. Only two Super 
Hornet aircraft were added in the OCO [Overseas Contingency 
Operations] in response to training and operational losses. The 
fiscal year 2018 budget shows a demand for 14 more aircraft but 
there still is a potential gap this year. These actions taken 
to address the tactical aviation shortfall are not enough. That 
is why the Chief of Naval Operations will provide Congress with 
a unfunded requirement request for 12 additional Super Hornets 
above the President's budget. There remains a shortfall of at 
least 36 Super Hornet aircraft in total.
    Given the critical capability that the Super Hornet 
provides for ongoing wartime operations, any shortfall is 
dangerous to the Navy's ability to project force throughout the 
world. This unfunded requirement request helps mitigate that 
shortfall, anticipating that the Navy will follow through on 
its promise to add aircraft in the next year's budget 
deliberation.
    In years past your committee has been incredibly responsive 
to the warfighters' most pressing needs. The budget is unfunded 
requirement request demonstrates how important tactical 
aviation is to the Navy's mission. The Super Hornet is 
providing that critical capability today at the most affordable 
cost.
    I ask that you urgently consider the Navy's unfunded 
request and add 12 F/A-18 Super Hornets to the President's 
budget to address the tactical aviation shortfall and, more 
importantly, the warfighters' needs.
    I look forward to working with you throughout the year on 
this issue, and I thank you for the consideration of this 
request. We ask that you take into consideration the recent 
demands placed on naval tactical aviation as you consider the 
President's budget request for fiscal year 2017.
    I yield back.
    [The prepared statement of Mrs. Wagner can be found in the 
Appendix on page 65.]
    The Chairman. Great. Any questions of the gentlelady? Thank 
you, ma'am. I appreciate you continuing to be such a strong 
advocate on this issue. The budget presents a number of 
challenges for us, but we will certainly be looking at the 
unfunded requirements list of all the services as we are able 
to meet additional needs.
    Thank you.
    Mrs. Wagner. Thank you, Mr. Chairman, for the 
consideration, and we will stand ready at your service to 
provide any additional information for support.
    Thank you.
    The Chairman. Thank you much. Next we are pleased to 
welcome the gentlelady delegate from American Samoa, Ms. 
Radewagen, before the committee.
    Thank you for being here, ma'am, and you are recognized for 
4 minutes.

  STATEMENT OF HON. AUMUA AMATA COLEMAN RADEWAGEN, A DELEGATE 
                      FROM AMERICAN SAMOA

    Mrs. Radewagen. Thank you, Chairman Thornberry, for the 
opportunity to testify today before the House Armed Services 
Committee in regards to H.R. 4341, the Defending America's 
Small Contractors Act. Particularly I will be addressing 
section 505 of title V of the bill, which I introduced on its 
own and has been included in H.R. 4341.
    As you may know, over the past decade numerous reports 
issued by SBA's Office of the Inspector General and the 
Government Accountability Office have identified structural 
weaknesses in the SBA's Office of Government Contracts and 
Business Developments [OGCBD] oversight of personnel and 
program management and control.
    Since fiscal year 2014, 39 percent of all Federal contract 
dollars have been awarded to small businesses, and in 
fulfilling its jurisdictional role, the House Small Business 
Committee is conducting oversight of the contracting programs 
run by the GCBD.
    However, because of the responsibility for implementing 
many of the programs rests outside of GCBD, and GCBD having 
limited influence over those responsible for the day-to-day 
operations of the program, the opportunity for waste, fraud, 
and abuse is prevalent. Meanwhile, regulation implementing 
statutory changes intended to help small businesses are taking 
three or more years to implement.
    Furthermore, many of the organizations within GCBD conduct 
duplicative activities leaving open the possibility of greater 
inefficiencies and more bureaucracy for small businesses 
seeking to compete in the Federal marketplace.
    Due to their importance, these issues were recently the 
topic of a hearing conducted by the House Small Business 
Committee's Subcommittee on Contracting and Workforce. As a 
result of the hearing and subsequent data, I introduced the 
Small Business Contracting and Acquisition Programs Efficiency 
Act or SB CAPE Act, which has become section 505 of title V of 
H.R. 4341, the Defending America's Small Contractors Act.
    Specifically section 505 requires GAO to examine the extent 
to which SBA personnel who carry out certain procurement and 
business development programs report to the OGCBD; determine 
whether greater efficiency and consistency in the certification 
process of the procurement and business development programs 
could be achieved by creating a single organizational unit of 
employees to process all certifications required by such 
programs; determine whether greater efficiency and efficiency 
in the performance of such programs could be achieved by 
improving the alignment of the field personnel assigned to 
them; assess how the OGCBD could improve its staffing of 
regulatory drafting functions and its coordination with the 
Federal Acquisition Regulatory Council, to ensure timely 
rulemaking by the SBA and report on any other areas in which 
the GAO determines that SBA could improve its performance with 
respect to procurement and business development programs.
    The report will prove to be a valuable tool in helping 
Congress to ensure that those offices and programs within SBA, 
which are created to help small businesses compete, are 
fulfilling their statutory mission. The importance of this 
legislation plays in my home district of American Samoa. It 
cannot be overstated as nearly all of the island's businesses 
qualify as a small business.
    Also, with proper organization, SBA will be a better 
partner to DOD as it seeks to strengthen the small business 
industrial base, one of the Department's current objectives.
    I respectfully encourage the House Armed Services Committee 
to adopt H.R. 4341, the Defending America's Small Contractors 
Act, and include it in this year's National Defense 
Authorization Act.
    Thank you again for the important work this committee does 
and for allowing me this opportunity to testify before you 
today. With your assistance I look forward to seeing this 
important legislation become law. I yield back the balance of 
my time.
    [The prepared statement of Mrs. Radewagen can be found in 
the Appendix on page 67.]
    The Chairman. Thank the gentlelady. Are there questions for 
the gentlelady? Gentleman from California, Mr. Knight.
    Mr. Knight. No question, Mr. Chair. I just wanted to add my 
support to H.R. 4341. Part of this bill was an issue that we 
authored, the DOD's Mentor-Protege program; and this bill will 
streamline the Mentor-Protege program by utilizing SBA to help 
the DOD simplify the process for DOD's execution in their 
program.
    It goes back to exactly what you have been saying. We need 
to get more defense for the dollar and I highly support this.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    The Chairman. I appreciate the gentlelady giving us further 
background and explanation of that particular section. So I 
appreciate very much you being here and discussing the small 
business package, which the committee will definitely consider.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    The Chairman. Next we are pleased to welcome the gentleman 
from Nevada, Mr. Hardy, before the committee. The gentleman is 
recognized for 4 minutes.

 STATEMENT OF HON. CRESENT HARDY, A REPRESENTATIVE FROM NEVADA

    Mr. Hardy. Good morning, Chairman Thornberry and ranking 
member and members of the committee. I appreciate the 
opportunity to testify before you on National Defense 
Authorization Act for 2017. I want to first thank you for 
keeping small business and the procurement reform on top of 
mind when you crafted last year's NDAA. The small business 
community appreciates your efforts.
    To continue the conversation, I want to speak briefly 
concerning the Small Business Contracting Initiative that often 
gets less attention than it deserves. Many times in contracting 
all of the efforts are concentrated on whether or not the fair 
competition is being observed. While this is absolutely 
paramount in our society, the person that wins the contract is 
often immediately thrown into a firestorm of compliance issues 
and burdens.
    Therefore, while we observe the pre-contract interactions, 
we also need to enhance the post-award compliance. With that 
said, I have introduced H.R. 4331, the Small Business Easy 
Contract Compliance Enhancement [and] List Act of 2016 to 
rectify this issue. This is straightforward legislation that 
requires small business advocates of the SBA, along with other 
agencies that participate in the Mentor-Protege programs, to 
offer a list of resources to the contract awardees.
    To help reduce compliance burdens, Chairman Chabot included 
post-award compliance language in his larger bill that offers 
important reforms for contractors and subcontractors. I 
encourage you to take a serious look at Chairman Chabot's large 
contracting bill, H.R. 4341, the Defending America's Small 
Contractors Act of 2016. These reforms will truly impact small 
businesses, one of our country's truest economic drivers.
    I would also like to draw quickly to your attention an 
ongoing issue in my district that has national security 
implications as well, you have got the word.
    My district in Nevada is the proud home of the Nevada Test 
and Training Range [NTTR], which is the largest continuous air 
and ground space available in the military training operation 
in the free world. It consists of 2.9 million acres of public 
land underneath approximately 12,000 square nautical miles of 
restricted airspace in the military operations area.
    The Air Force uses the NTTR to perform advanced exercises 
and tactics development in a multidimensional training 
environment unlike any other. Yet despite the critical 
importance of the NTTR to our national security, multiple 
layers of duplicative regulations are preventing the Air Force 
from meeting defense test and training objectives due to the 
lack of ready access to the withdrawn land.
    This inability to fully utilize the withdrawn lands also 
denies full use of the restricted airspace overlaying the area, 
further restricting operational flexibility.
    Mr. Chairman, the Air Force has been conducting bombing and 
gunnery practice, tactics development, and electronic testing 
and training on these lands since 1940, a full 40 years before 
the Fish and Wildlife [Service] nominated the area for 
wilderness designation. And it is a flawed wilderness 
designation to begin with that refused to account for the 
existing military impacts on the land.
    What this all boils down to is the military should not be 
saddled with multiple layers of duplicative regulations that 
hinder their ability to adequately train for the mission that 
will keep America's people safe.
    While the Department of Defense and the Department of 
Interior have inherently different missions, there is no reason 
why they cannot better partner to arrive at the commonsense 
solutions for the land they co-manage.
    Mr. Chairman, my home State of Nevada is more than 85 
percent federally controlled. While Nevadans may have their 
disagreements with the Federal land management agencies, we are 
proud to welcome the military personnel who call our State 
home. We feel a sense of duty and patriotism to have these 
vital training activities take place in Nevada, and we would 
like nothing more than to allow our service men and women the 
freedom to train for their missions.
    And again, I would like to thank the chairman and ranking 
member for the opportunity to speak to you today.
    [The prepared statement of Mr. Hardy can be found in the 
Appendix on page 69.]
    The Chairman. Thank you, sir. As I think you know, I was 
just out at the Nevada test site last November, and I agree 
completely. It is an incredible national asset, as our 
colleague from Nevada knows. And we want to make sure the 
country can benefit from the full use of it. So I think the 
value of that area is just unquestioned.
    Are there questions for the gentleman from Nevada? Not? 
Appreciate you being here and raising those issues. I thank 
you, sir.
    Next we have the gentlelady from Tennessee, Mrs. Blackburn, 
Thanks for being back with us, one of the strong advocates for 
our military. The gentlelady is recognized for 4 minutes. Is--
--

   STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE FROM 
                           TENNESSEE

    Mrs. Blackburn. I am pleased to be back with you again and 
always I appreciate your patience. As you all are aware, I 
represent Tennessee's Seventh Congressional District and it 
encompasses Montgomery County, Tennessee, which is Clarksville, 
and there you have located Fort Campbell. And Fort Campbell is 
home to the storied 101st Airborne, the most deployed unit in 
the U.S. military, the 5th Special Forces Group, and the Army's 
160th Special Operations Aviation Regiment.
    Approximately 1,900 officers and 26,000 enlisted personnel 
call Fort Campbell home. Like many installations across the 
country, Fort Campbell was facing troop cuts. I was pleased to 
see that Fort Campbell was spared major troop reductions. We 
are grateful for that.
    I was pleased to work with this committee last year in 
support of the Army Flying Hours Program. This vital program 
provides aviation training resources for individual crew 
members and units according to approved aviation training 
strategies.
    In addition, it also provides individual and collective 
proficiency in support of ongoing combat and non-combat air 
operation. For aviation units like the 101st this training is 
not only vital to mission success, but to the safety of our 
personnel. Without the necessary funding, home station training 
opportunities will not be available to achieve optimal combat 
readiness.
    I ask the members of this committee to once again pay close 
attention to the restoring of the Flying Hours Program to its 
full capacity in fiscal year 2017. I would also like to bring 
to this committee's attention that further reducing our 
Nation's Armed Forces will hamstring our ability to meet the 
challenges and threats of an increasingly destabilized world. 
As America withdraws from the international community, 
countries like Russia are becoming increasingly brazen.
    We see it in the annexation of Crimea by Russian-backed 
separatists, civil war in Yemen and Syria, and China's military 
buildup. As discord continues to grow around the world, the 
U.S. must have the personnel and capabilities to respond and 
protect our national interests.
    Soldiers from Fort Campbell are always tasked with 
responding to threats to our national security around the 
globe. We would be putting their lives in increased danger by 
reducing their numerical strength and not providing them with 
the training that they need.
    That is why I support H.R. 4534, the Protecting Our 
Security Through Utilizing Right-Sized End-Strength or POSTURE 
Act. H.R. 4534 would reverse the current drawdown of the end 
strength levels for the U.S. land forces, specifically, the 
Army and Marines. It will freeze the current down draw on 
Marine personnel levels and increase Army end strength levels.
    General Ham recently testified that it takes 3 years to 
stand back up a fully ready brigade combat team. And this 
legislation would make sure that we need to address this issue 
in a destabilized world.
    Thank you for allowing me to come before you with the 
testimony. I appreciate your attention to the details of the 
issues.
    [The prepared statement of Mrs. Blackburn can be found in 
the Appendix on page 73.]
    The Chairman. I appreciate it, gentlelady. I think there is 
a lot of support on this committee for the proposal that she 
was just talking about. Our challenge of course is going to be 
budgetary depending on how the budget and allocations work out. 
Are there any questions of the gentlelady? Thank you, ma'am. 
Appreciate----
    Mrs. Blackburn. Yes.
    The Chairman. I appreciate you being with us and raising 
those issues. Next we have the distinguished gentleman from the 
State of Texas, neighbor to Mr. Conaway and to me, Mr. 
Neugebauer, recognized for 4 minutes.

STATEMENT OF HON. RANDY NEUGEBAUER, A REPRESENTATIVE FROM TEXAS

    Mr. Neugebauer. Thank you, Chairman Thornberry, and for 
holding this important hearing. I would like to take this 
opportunity to testify before this committee today on my 
national defense priorities.
    My district, Texas 19th Congressional District, is home of 
5,100 military and civilian personnel stationed at Dyess Air 
Force Base. Located on the outskirts of the city of Abilene, 
Dyess houses among the other missions, the 7th Bomb Wing, home 
to 33 of the 62 B-1 Lancers strategic bombers.
    As a part of the fiscal year 2017 budget, the Air Force has 
proposed a $5.8 million in research, development, and test and 
evaluation funding for the B-1 and $116.3 million in 
procurement funding. Throughout its proposed 2017 budget, the 
Air Force includes funding in other accounts for various 
improvements to the B-1s as well as funding for the B-1 
maintenance and funding for the new B-1 Classic Associate 
Reserve Unit at Dyess Air Force Base.
    Mr. Chairman and ranking member, I request the committee's 
support for these essential B-1 programs as it considers the 
fiscal year 2017 NDAA. Since 2001, the B-1 bomber has played a 
vital role in Afghanistan and Iraq and is now a major force in 
our battle against ISIL [Islamic State of Iraq and the Levant].
    In its budget documents, the Air Force highlights the B-1's 
critical importance to our national defense stating that ``The 
B-1B Lancer,'' and I quote: ``is a swing-wing, supersonic, 
long-range conventional bomber. It carries the largest payload 
of both guided and unguided weapons in the Air Force inventory. 
The multi-mission B-1B is the backbone of America's long-range 
bomber force and can rapidly deliver massive quantities of 
precision and non-precision weapons against any adversary, 
anywhere in the world, at any time.'' The current service life 
for the B-1 is beyond 2040.
    As further evidence of the B-1's importance, it was the 
first aircraft to be fitted for the Joint Air-to-Surface 
Standoff Missile-Extended Range, and along with the F/A-18, 
will be the initial aircraft to carry the Navy's Long-Range 
Anti-Ship Missile.
    In its request for the 2017 overseas contingency operations 
funding, the Air Force stated: ``As a force provider to the 
U.S. Central Command area of responsibility, the primary combat 
forces are the Air Force's front-line fighters and bombers, the 
A-10, the B-1, F-15 and F-16, representing the `tip of the 
global power projection spear.' These assets provide a strong 
capability to counter a wide range of threats to the U.S. and 
its allies, as well as help assure a viable deterrent posture 
in the region.''
    As the backbone of the long-range bomber force, as the 
``tip of the global power projection spear,'' and with a 
service life of beyond 2040, it makes sense for our national 
defense standpoint and for a physical standpoint to ensure that 
the B-1 continues to receive the funding it needs in order to 
remain effective and efficient and viable today and in the 
future.
    I request that the committee continue to support funding 
for 2017 and beyond. I would also like to request the 
committee's continued support for the new Long-Range Strike 
Bomber which the Air Force has designated as the B-21. This new 
bomber has been under development for several years and it is 
essential that the Air Force complete the necessary research 
work and begin the production of this aircraft in order to meet 
the goal of having it operational by the mid-2020s.
    As the Air Force and Congress move forward with the new 
bomber, we support the selection of Dyess Air Force Base to 
host the B-21. Dyess has been a bomber base since its inception 
more than 50 years ago, initially hosting B-47s and then B-52s. 
And then for the past 30 years, Dyess has been the Air Force's 
primary B-1 base. Dyess has also successfully served as the B-1 
formal training unit, and now has the B-1 Classic Associate 
Reserve Unit.
    With a strong track record of meeting long-range strike 
mission requirements, Dyess would be an excellent base for the 
B-21.
    I thank you again, Chairman, for holding these hearings. 
And I appreciate this committee's important work as keeping 
America safe, and would be glad to take any questions.
    [The prepared statement of Mr. Neugebauer can be found in 
the Appendix on page 75.]
    The Chairman. Any questions for the gentleman from Texas? 
The gentleman may be interested to know that just yesterday the 
committee held a meeting where the importance of the B-1 in the 
current fight was absolutely confirmed. So I appreciate the 
points the gentleman raises on both programs, and we certainly 
appreciate his testimony here today.
    Next we have the distinguished gentleman from Illinois, Mr. 
Bost. Appreciate you being with us, sir. You are recognized for 
4 minutes.

  STATEMENT OF HON. MIKE BOST, A REPRESENTATIVE FROM ILLINOIS

    Mr. Bost. Thank you, Chairman Thornberry and ranking 
member, for having me here today and for allowing me to give my 
comments and those comments will be brief. I intend to discuss 
two items I hope will be included in the NDAA: legislation 
included in H.R. 4341 to modernize small business 
administration size standards for agricultural producers, and 
the Navy's anticipated need for additional F/A-18 strike 
fighters.
    You know, President Eisenhower once said: ``Farming looks 
pretty easy as long as you do it with a pencil and you are 
about a thousand miles from a cornfield.'' Unfortunately, this 
quote is accurate and when describing the statutory 
establishment size standards for agricultural producers.
    Agricultural producers are an important contribution to the 
American economy. According to the USDA [U.S. Department of 
Agriculture], the total value of farm products exceeds $390 
billion, and the agricultural industry supports 16 million 
domestic jobs. Family-owned farms still account for a majority 
of farms and ranches in the United States.
    However, farming and ranching are low-margin industries. 
This has led to a consolidation of many single family-owned 
operations into larger multi-family-owned operations. But by 
any reasonable definition, these operations remain small 
business.
    Unfortunately, the current small business size standards 
for agriculture have been set by statute and are outdated. The 
standard is too low for the vast majority of farms and ranches 
to participate in potential government contracting and 
subcontracting opportunities.
    In addition, the statutory standard has no reasonable basis 
for why it is set at that. It appears that the Congress at one 
time just decided to pick a number out of the air and the 
previous Congress just set that number. And it was 30 years 
since its enactment of the size standard, but the Small 
Business Administration has significantly improved its process 
to determine small business size standards. This should address 
whatever issue previous Congresses had when it would establish 
the statutory size standard.
    I believe that the importance that Congress and Federal 
agencies promote consistency in policymaking. Now, the language 
in H.R. 4341 will help ensure consistency and I encourage its 
adoption by the committee.
    But lastly I would like to also discuss the Navy's need for 
additional F-18 strike fighters. The F-18 is currently the only 
operational strike fighter line for the United States Navy, and 
it is a significant and national security asset that should be 
enacted to protect.
    The fiscal year 2016 NDAA and the fiscal year 2016 
Department of Defense Appropriations Act included funding for 
the procurement of 12 F/A-18s. However, this number may still 
be short of what the U.S. Navy needs, as the service has 
previously testified to a potential shortfall of 24 to 36 
aircraft.
    The procurement of additional F/A-18 Super Hornets is 
critical to meeting the anticipated needs of the United States 
Navy and to keeping the production line open for the United 
States prepares anticipated aircraft sales to allied nations. 
It is important to preserve the value of the St. Louis region 
defense industry base as well.
    Therefore, I request the authorization of any aircraft 
requests by the United States Navy. And once again, I thank you 
for allowing me the opportunity to appear here today and I 
would be glad to answer any questions of the committee.
    [The prepared statement of Mr. Bost can be found in the 
Appendix on page 78.]
    The Chairman. Thank the gentleman. Are there any questions? 
I know the chair of the Agriculture Committee is paying 
particular attention to the testimony of the gentleman on that 
part of the small business package, but I appreciate the 
gentleman being here and sharing his thoughts with us.
    Mr. Bost. Thank you, Mr. Thornberry.
    The Chairman. Thank you. Pleased to welcome the gentleman 
from Florida, Mr. Yoho, before the committee. The gentleman is 
recognized for 4 minutes.

  STATEMENT OF HON. TED S. YOHO, A REPRESENTATIVE FROM FLORIDA

    Mr. Yoho. Thank you, Mr. Chairman and Ranking Member Smith, 
for the opportunity to come and speak before this committee. 
This is a great chance you are affording Members of Congress 
who do not sit on Armed Services.
    Today I would like to speak to you about a transfer of 
property and detainees from Guantanamo Bay Naval Station. As 
you know, it is currently illegal for the President to transfer 
detainees from the base to the United States, but the actual 
base itself can be transferred back to the Castro government 
without the consent of the U.S. Congress.
    Recently, the Castro government demanded that in order for 
normalization to continue between Cuba and the United States, 
the Guantanamo Bay Naval Base must be transferred back to Cuba. 
The 1903 lease agreement between the governments of Cuba and 
the United States are controlled by the language of the 1934 
treaty stipulating that the lease can only be modified or 
abrogated pursuant to an agreement between the United States 
and Cuba.
    The territorial limits of the naval station remain as they 
were in 1934 unless the United States abandons Guantanamo Bay 
or the two governments reach an agreement to modify its 
boundaries. While there appears to be no consensus on whether 
the President can modify the agreement alone, Congress is 
empowered to alter that statute by the statute the effect of 
the underlying 1934 treaty.
    A statute passed later than a treaty is recognized to 
supersede the terms of the treaty, at least as far as domestic 
law is concerned. Although not firmly established, it seems 
likely that Congress could override any implications that might 
be drawn from the 1934 treaty with respect to Presidential 
authority to modify the Guantanamo lease by enacting 
legislation specifying that any such modification must be 
accomplished with the advice and consent of the Senate or the 
concurrence of Congress.
    In fact, Congress has passed legislation establishing 
policy with respect to Guantanamo leases. As part of the Cuban 
Liberty and Democratic Solidarity Act known as Libertad, 
Congress established that the policy of the United States is to 
be prepared to enter into negotiations with a democratic 
elected government in Cuba either to return the United States 
Naval Base at Guantanamo to Cuba or to renegotiate the present 
agreement under mutual agreeable terms.
    The provision appears to approve negotiations by the 
President with a democratic Cuban government and in that 
Libertad agreement it says that the freedoms and the liberty of 
the Cuban people must be enhanced with that agreement.
    Let us see. The provision appears to approve negotiations 
by the President with a democratic Cuban government over the 
possible return of Guantanamo Bay, but it does not explicitly 
approve the entry into such an agreement as a congressional-
executive agreement. Moreover, it does not expressly prohibit 
the negotiations of lease modifications with the existing Cuban 
government.
    It can be argued that an executive agreement with Cuba to 
close the base would in effect amount to an executive agreement 
pursuant to the 1934 treaty and would thus not require the 
advice and consent of the Senate.
    In order to protect this potential unilateral action by the 
President, I introduced H.R. 4126, the Guantanamo Transfer 
Prevention Act, which among other things would prevent the 
President from unilaterally ceding the base back to the Cuban 
government without the advice and consent of Congress. It has 
68 co-sponsors on it at this time.
    While I work to move my standalone bill, I want to take 
this time to urge the Armed Services Committee to take similar 
actions in protecting against this potential for executive 
action and to ensure that the President must come to Congress 
first via the authorization process that no authorization be 
given to transfer the Guantanamo Bay Naval Base.
    I thank you for this opportunity and the time here.
    [The prepared statement of Mr. Yoho can be found in the 
Appendix on page 80.]
    The Chairman. Any questions for the gentleman? I appreciate 
the gentleman's suggestions.
    We did have a provision in last year's NDAA to prevent the 
transfer of the naval base back to Cuba, but I think the 
gentleman raises a number of interesting questions about how to 
strengthen that or make it more permanent because certainly it 
is only what we have in law is only for the fiscal year.
    Mr. Yoho. Right, and it is such a strategic place in the 
Caribbean and a national security interest.
    The Chairman. Yes. If there are no questions, appreciate 
the gentleman being here.
    Mr. Yoho. Thank you for your time.
    The Chairman. Thank you very much for your suggestions. And 
if no other members seeking recognition, the committee stands 
adjourned.
    [Whereupon, at 11:17 a.m., the committee was adjourned.]

     
=======================================================================
                          
                          
                          A P P E N D I X

                             March 1, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2016

=======================================================================

      
      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 1, 2016

=======================================================================

      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
